Nos. 19-251 & 19-255
IN THE

~upreme QCourt of tbe mntteb ~tates
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,

V.

XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA,

THOMAS MORE LAW CENTER,

Respondent.
Petitioner,

V.

XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Brief of Senator Mitch McConnell as Amicus Curiae in Support of Petitioners, in

Americans for Prosperity Foundation v. Becerra, No. 19-251, and Thomas More Law
Center v. Becerra, No. 19-255, were served via overnight mail on all parties required:
Derek L. Shaffer

QUINN EMANUEL URQUHART
SULLIVAN, LLP

&

1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

Counsel for Americans for Prosperity
Foundation

John J. Bursch

ALLIANCE DEFENDING FREEDOM

440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@a dfl e gal. org

Counsel for Thomas More Law Center

Aimee Athena Feinberg
CALIFORNIA DEPARTMENT OF JUSTICE

Elizabeth B. Prelogar
Acting Solicitor General

1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee. Feinberg@doj.ca. gov

DEPARTMENT OF JUSTICE

Counsel for Xavier Becerra,
Attorney General of California

Counsel for United States

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
su premectbriefs@usdoj.gov

I declare under penalty of perjury that the foregoing is true and correct.

Date: March 1, 2021

